         DEFENSE INFORMATION SYSTEMS AGENCY
   RIGHT-SIZING PLAN FOR REGIONAL SUPPORT ACTIVITIES


Report No. D-2000-175                   August 15, 2000




             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General, DoD,
 Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
 604-8937 (DSN 664-8937) or FAX (703) 604-8932.

 Suggestions for Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                OAIG-AUD (ATTN: AFTS Audit Suggestions)
                 Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2885

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

DISA                 Defense Information Systems Agency
RSA                  Regional Support Activity
                       Office of the Inspector General, DoD
Report No. D-2000-175                                                    August 15, 2000
   (Project No. D2000CG-0165)

                    Defense Information Systems Agency
              Right-Sizing Plan for Regional Support Activities

                                Executive Summary

Introduction. The Defense Information Systems Agency developed a plan to resize the
regional support activities infrastructure as part of the goal to ensure that all regional
support activities are self-sustaining. An Internal Control Plan for Right Sizing
Regional Support Activities was developed and approved by the Director, Defense
Information Systems Agency, on October 7, 1999. The Internal Control Plan
establishes the policies, responsibilities, and procedures to guide the process for
balancing revenue and costs at the regional support activities. A Right-Sizing
Management Plan for Regional Support Activities was also developed and approved by
the Director, Defense Information Systems Agency, on February 29, 2000. The
Management Plan describes the implementation procedures for the right-sizing process.
The Director, Defense Information Systems Agency, requested that the Inspector
General, DoD, review the plan in advance of its implementation to ensure that the
decisionmaking process is equitable and defendable, with respect to the regional support
activities. For additional information on the audit process, see Appendix A.

Objectives. The audit objective was to determine whether the Defense Information
Systems Agency plan for right-sizing their regional support activities conforms to the
organizational goals and is consistent with DoD policy and regulations. We also
reviewed the adequacy of the management control program as it applied to the audit
objective.

Results. The Defense Information Systems Agency right-sizing plan for its regional
support activities conforms to the organizational goals of fairness, impartiality,
objectivity, and defensibility, and is consistent with DoD policy and regulations. The
management controls that we reviewed were effective in that no material management
control weakness was identified in the regional support activities right-sizing planning
process. See Appendix A for details on the management control program.

Management Comments. We provided a draft of this report on July 3, 2000. No
written response was required, and none were received. Therefore, we are publishing
this report in final form.
Table of Contents

Executive Summary                                                        i


Introduction
     Background                                                          1
     Objectives                                                          1

Finding
     Defense Information Systems Agency Right-Sizing Plan for Regional
        Support Activities                                               2

Appendixes
     A. Audit Process
          Scope                                                          5
          Methodology                                                    5
          Management Control Program                                     6
          Prior Coverage                                                 6
     B. Report Distribution                                              7
Background
     The Defense Information Systems Agency (DISA) provides computer
     information technology support to DoD Military Departments and Defense
     agencies. DISA provides that support through 22 regional support activities
     (RSAs) located throughout the continental United States and the Pacific. Six of
     the RSAs are collocated with mainframe processing sites and the three RSAs in
     the Pacific are identified as Information Technology Centers.

     The Deputy Secretary of Defense approved the Defense Megacenter Business
     Strategy on November 12, 1997. The business strategy introduces the RSA
     concept and states that all RSAs must be self-sustaining and cannot be
     subsidized by other sites or by mainframe processing. The director also
     requested that the Inspector General, DoD, assist in a review of the plan and
     analysis of the RSA right-sizing process.



Objectives
     The audit objective was to determine whether the DISA plan for right-sizing
     their regional support activities conforms to the organizational goals and is
     consistent with DoD policy and regulations. We also reviewed the adequacy of
     the management control program as it applied to the audit objective. See
     Appendix A for a discussion of the audit process and the review of the
     management control program.




                                        1
            Defense Information Systems Agency
            Right-Sizing Plan for Regional Support
            Activities
            The Defense Information Systems Agency right-sizing plan for its
            regional support activities is consistent with DoD policy and regulations,
            and conforms to the organizational goals of fairness, impartiality,
            objectivity, and defensibility. Therefore, the plan can properly provide a
            framework for implementing the right-sizing process.



RSA Self-Sustaining Requirement
     The Deputy Secretary of Defense approved the DISA Defense Megacenter
     Business Strategy on November 12, 1997. DISA is involved in a Quadrennial
     Defense Review and Defense Reform Initiative, a mandated effort to ensure
     that the RSAs are self-sustaining. All RSAs operate on a fee-for-service basis,
     and are expected to operate on a full-cost-recovery basis; that is, each RSA
     must generate revenues from services performed for its customers that equals
     the total RSA costs. To accomplish this goal, DISA developed an internal
     control plan and a management plan to establish and implement an RSA
     infrastructure right-sizing process.



Internal Control Plan
     The “Internal Control Plan for Right-Sizing Regional Support Activities,” (the
     Internal Control Plan) was approved by the Director, DISA on October 7, 1999.
     The Internal Control Plan establishes the policies, responsibilities, and
     procedures to guide the process for balancing revenue and costs at the RSAs.
     To ensure that the right-sizing process is impartial, the Internal Control Plan
     establishes a project organization, tasked with managing the process, which is
     “clearly separate from RSA operations.” In accordance with this impartiality
     principle, the Internal Control Plan articulates a multitier organization to
     manage the right-sizing process.

            •   Director, DISA. Internal Control Plan designates the Director,
                DISA, as the “senior approval authority” for the RSA right-sizing
                process. The director is tasked with approving the Internal Control
                Plan and the Management Plan, and must approve any involuntary
                personnel actions resulting from the right-sizing process.

            •   Executive Group. The executive group assists the director as an
                advisory body. It is chaired by the Deputy Director for Strategic
                Plans and Policy and is composed of various DISA organization
                heads. Specific responsibilities of the executive group include:

                                         2
               approval of data collection plans, approval of right-sizing actions for
               designated sites, review of right-sizing action implementation, and
               oversight of the right-sizing working group.

           •   Working Group. The working group identifies issues and
               documents decisions relating to the right-sizing process. It is chaired
               by the Chief, Defense Computing Business Office, and is composed
               of representatives from the DISA Comptroller and the DISA field
               command with geographic responsibility for the Western Hemisphere
               Theater (WESTHEM). The working group is tasked with developing
               the Internal Control Plan and the Management Plan, developing the
               plans for collecting data to be used in the right-sizing decision
               process, and coordinating with the various field organizations.

    The Internal Control Plan also establishes general procedural rules for collecting
    data to be used in the right-sizing process and establishes milestones for
    completing the process.


Management Plan
    The Director, DISA, approved the Management Plan on February 29, 2000. The
    Management Plan describes the process that will be used to ensure that RSAs and
    Information Technology Centers operate in a self-sustaining, full-cost-recovery
    manner. Under the Management Plan, an “executive group” composed of various
    members of the DISA upper management will be tasked with overseeing the right-
    sizing process; however, any involuntary personnel actions resulting from the
    process, such as reduction-in-force actions, will require approval by the Director,
    DISA. The plan outlines a repeating annual process where a management
    evaluation of the RSA performance and financial status, and resultant corrective
    actions, occur on an 18-month cycle. DISA expects this process to continue
    indefinitely until the executive group overseeing the right-sizing plan determines
    that it is no longer needed.
    The Management Plan states that the RSA right-sizing process is intended to
    achieve the following goals:

           • ensure the continuity of critical military functions;

           • ensure that RSAs are competitive, based on price and performance; and

           • balance costs and revenues in the RSAs.



Inspector General, Department of Defense, Review
    The DISA right-sizing plan for its regional support activities conforms with the
    organizational goals of fairness, impartiality, objectivity, and defensibility, and
    is consistent with DoD policy and regulations. The audit initially identified one

                                         3
   concern regarding planned IG, DoD, involvement in the Management Plan’s
   implementation; however, DISA management adequately addressed that concern
   during the course of the audit. Therefore, the plan can properly provide a
   framework for implementing the DISA right-sizing process.

   IG, DoD, Review of Right-Sizing Process. Paragraphs 3.4.1.1 and 3.4.1.2 of
   the Management Plan state that DISA WESTHEM must identify and review all
   policies and practices related to the allocation of overhead and cost transfers
   among the RSAs. After reviewing those policies and practices, the
   Commander, DISA WESTHEM, must certify that they are equitable and in
   accordance with all applicable Defense Working Capital Fund guidance.
   Paragraph 3.4.3.4 states that DISA will request that the IG, DoD, review the
   accuracy and completeness of the data used in the right-sizing process, and
   verify that overhead is allocated in a fair and equitable manner among the
   RSAs.

   We suggested that the right-sizing plan could be implemented more
   expeditiously if IG, DoD, preemptively reviewed the policies and practices for
   allocating overhead and cost transfers contemporaneously with the DISA
   review. In the event that IG, DoD, identified problems with the overhead or
   cost transfer allocation methodology, DISA would have the opportunity to revise
   its policies or practices at the first instance, rather than relying on a potentially
   flawed methodology. However, the Chief, Defense Computing Business Office,
   DISA stated that while WESTHEM had not yet completed management reviews
   of its field activities as called for by the Management Plan, it would not be
   appropriate for the IG, DoD, to preemptively review those same policies and
   procedures. The chief further stated that when the year-end financial data is
   available, the IG, DoD, will have sufficient time to validate policies and
   procedures for overhead allocation and cost transfers, and to analyze whether
   each RSA was treated fairly and equitably. DISA agreed to revise the
   Management Plan accordingly.


Summary
   No discrepancies were found in the DISA Internal Control Plan. Minor
   discrepancies were identified in the DISA Management Plan, which DISA
   corrected during the execution of this audit. Therefore the plan for the
   decisionmaking process is equitable and defendable. Accordingly, there are
   no recommendations in this report.




                                         4
Appendix A. Audit Process

Scope
    Work Performed. We reviewed the approved DISA Internal Control Plan and
    Management Plan for the right-sizing process, interviewed cognizant DISA
    personnel, and reviewed other DISA documentation applicable to the audit
    objectives.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance
    goals, and performance measures. This report pertains to achievement of the
    following goal and subordinate performance goal:

           •   FY 2000 DoD Corporate Goal 2: Prepare now for an uncertain
               future by pursuing a focused modernization effort that maintains U.S.
               qualitative superiority in key warfighting capabilities. Transform the
               force by exploiting the Revolution in Military Affairs and reengineer
               the Department to achieve a 21st century infrastructure.

           •   FY 2000 Subordinate Performance Goal 2.3: Streamline the DoD
               infrastructure by redesigning the Department’s support structure and
               pursuing business practice reforms (00-DoD-2.3).

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the Department of Defense. This report
    provides coverage of the Defense Infrastructure high-risk area.


Methodology
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Audit Type, Dates, and Standards. This economy and efficiency audit was
    performed from April to May 2000, in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the Inspector
    General, DoD.

    Contacts During the Audit. We visited or contacted organizations within
    DoD. Further details are available on request.




                                        5
Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DISA management controls over development of its RSA right-
    sizing plan. Specifically, we reviewed the DISA “Internal Control Plan for
    Right-Sizing Regional Support Activities” to determine whether the plan
    established adequate controls over the RSA right-sizing planning process.
    Because we did not identify a material weakness, we did not assess
    management’s self-evaluation.
    Adequacy of Management Controls. DISA management controls over the
    RSA right-sizing planing process were adequate in that we identified no material
    management control weaknesses.



Prior Coverage
    No prior coverage has been conducted on the subject during the last 5 years.




                                       6
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Industrial Affairs and Installations)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications and Intelligence)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Information Systems Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                          7
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                        8
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.

Paul J. Granetto
Wayne K. Million
Bobbie Sau Wan
Marc A. Pederson
